HHS/OIG, Audit - "Review of Administrative Costs Claimed Under Title IV-E of the Social Security Act by Debra Corn, Inc. for the Calendar Year 2000 - Indiana Family and Social Services Agency, Indianapolis, Indiana," (A-05-02-00037)
Department
of Health and Human Services
"Review of Administrative Costs Claimed Under Title IV-E of the Social
Security Act by Debra Corn, Inc. for the Calendar Year 2000 - Indiana Family
and Social Services Agency, Indianapolis, Indiana," (A-05-02-00037)
February 7, 2003
Complete Text of Report is available in PDF format
(303 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
The audit objective was to determine whether administrative costs claimed by
the Debra Corn, Inc. child placement agency on its Calendar Year (CY) 2000 cost
reports were reasonable and allowable for reimbursement under Indianas Foster
Care Program (Title IV-E of the Social Security Act).  The CY 2000 cost
report contained unallowable costs which caused the Indiana Foster Care Program
to pay Debra Corn, Inc. $24,533 more than reasonable and necessary for administrative
costs (federal share is $10,609).  We recommended that the Indiana Foster
Care Program recoup the $24,533 in overpayments made to Debra Corn, Inc. and
credit the $10,609 federal share to the Federal Government on its next IV-E
Financial Report.  The State concurred with our audit findings.